                                                          OFFICE OF INVESTIGATIONS

                                                 CLOSEOUT MEMORANDUM




              We received an allegation that the subject1plagiarized ideas from an earlier NSF proposal2
              submitted by the complainant3 into the subject's more recently submitted NSF proposal.4 We
              learned from the complainant the history of his past interactions with the subject.

              First, we determined that there was no copied text in the subject's proposal. Second, we found
              no evidence that the idea presented by the complainant in his NSF proposal was plagiarized in
              the subject's proposal.

              This case is closed and no further action will be taken.




I
    NSF OIG Folin 2 (1 1/02)
